      U.S. DEPARTMENT OF COMMERCE
                Office of Inspector General
 

 



               United States Patent
              and Trademark Office


    FY 2009 FISMA Assessment of the
          Patent Cooperation Treaty
         Search Recordation System
                     (PTOC-018-00)

      Final Inspection Report No. OAE-19731
                               November 2009




                  Office of Audit and Evaluation
                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                  Office of Inspector General
                                                  Washington. D.C. 20230




NOVEMBER   20, 2009

MEMORANDUM FOR:       David Kappos
                      Under Secretary of Commerce for Intellectual Property and
                      Director of the United States Patent and Trademark Office



FROM:                 Allen Crawley
                      Assistant Inspector General for Systems Acquisition and
                      IT Security

SUBJECT:              United States Patent and Trademark Office (USPTO)
                      FY 2009 FISMA EvaltLGtion of Patent Cooperation Treaty
                      Search Recordation System (PTOC-018-00)
                      Final Report No. OAE-19731

Attached please find a copy of our report on the results of our evaluation of the
Patent Cooperation Treaty Search Recordation System (PCTSRS). We evaluated
certification and accreditation activities for PCTSRS as part of our responsibilities
under the Federal Information Security Management Act (FISMA).
We found only minor deficiencies with the system's certification and accreditation,
and continuous monitoring. Likewise, our evaluation of the system's security
controls found only minor deficiencies. However, we did not perform a previously
scheduled on-site assessment, which would have provided greater assurance of the
controls' effectiveness, because it was too close to our FISMA reporting deadline.
Your October 29, 2009, response to our draft report agreed with our findings and
recommendations. In our report, we summarize and comment on your response and
have included it in its entirety as appendix B.
Please submit to us an action plan within 60 calendar days from the date of this
memorandum-this should be in the form of a plan of action and milestones as
required by FISMA.
We appreciate the cooperation and courtesies extended to us by your staff during
our evaluation. If you would like to discuss any of the issues raised in this report,
please call me at (202) 482-1855.
 


Attachment

cc:   Suzanne Hilding, Chief Information Officer, U.S. Department of Commerce
      Margaret A. Focarino, acting commissioner for patents, USPTO
      John B. Owens II, chief information officer, USPTO
      Rod Turk, director, office of policy and governance, USPTO
      Welton Lloyd, USPTO audit liaison
                                  Report In Brief
                                       U.S. Department of Commerce, Office of Inspector General
                                                           November 2009

Why We Did This Review United States Patent and Trademark Office (USPTO)
The Federal Information
Security Management Act of          FY 2009 FISMA Assessment of the Patent Cooperation
2002 (FISMA) requires federal
agencies to identify and provide
                                   Treaty Search Recordation System (OAE-19731)
security protection of informa-
tion collected or maintained by What We Found
it or on its behalf. Inspectors
general are required to annually
                                   Our objectives for this review were to determine whether (1) implemented con-
evaluate agencies’ information
                                   trols adequately protect the system and its information, (2) continuous monitor-
security programs and practices.
                                   ing is keeping the authorizing official sufficiently informed about the operational
Such evaluations must include
                                   status and effectiveness of security controls, and (3) the certification and accredi-
testing of a representative subset
                                   tation (C&A) process produced sufficient information about remaining system
of systems and an assessment,
                                   vulnerabilities to enable the authorizing official to make a credible, risk-based
based on that testing, of the
                                   accreditation decision.
entity’s compliance with FISMA
and applicable requirements.
                                     Although we found minor deficiencies with PCTSRS’ C&A activities, USPTO’s
                                     C&A process produced sufficient information to enable the authorizing officials
This review covers our evalu-
                                     to make a credible, risk-based accreditation decision. Our evaluation of the sys-
ation of USPTO’s PCTSRS,
                                     tem’s security controls also found only minor deficiencies.
which is one of a sample of sys-
tems we assessed in FY 2009.




Background
PCTSRS is a contractor-owned
system that provides services
related to international patent
applications. The contractor’s       What We Recommend
employees use the system to
perform searches and submit
written opinions regarding the       In order to ensure PCTSRS complies with FISMA requirements, USPTO should
patentability of inventions.         resolve the minor deficiencies we reported in our assessment. USPTO agrees
                                     with our findings, and has begun to take steps to implement our recommenda-
C&A is a process by which            tions.
security controls for IT sys-
tems are assessed to determine
their overall effectiveness.
Understanding the remaining
vulnerabilities identified during
the assessment is essential in
determining the risk to the orga-
nization’s operations and assets,
to individuals, to other organiza-
tions, and to the nation resulting
from the use of the system.
U.S. Department of Commerce                                                                        Final Report OAE-19731
Office of Inspector General                                                                                  November 2009


                                                        Contents

Introduction ................................................................................................................... 1
Findings and Recommendations ................................................................................... 3
I.        Certification and Accreditation Process Included Minor Deficiencies .............. 3
       A. Boundary Definition and System Component Inventory................................ 3
       B. Security Plan Deficiencies ................................................................................ 3
II.       Minor Deficiencies Identified in System Security Controls ............................... 4
       A. Configuration Settings (CM-6) ......................................................................... 4
       B. Baseline Configuration (CM-2) ........................................................................ 5
III.      Continuous Monitoring Is Keeping Authorizing Officials Sufficiently
          Informed, with a Minor Exception ...................................................................... 6
       A. Vulnerability Remediation and POA&M Validation ...................................... 6
Recommendations .......................................................................................................... 7
Summary of USPTO Response and OIG Comments .................................................... 8
Appendix A: Objectives, Scope, and Methodology ........................................................ 9
Appendix B: USPTO Response .................................................................................... 12
U.S. Department of Commerce                                        Final Report OAE-19731
Office of Inspector General                                                  November 2009


                                    Introduction
We evaluated certification and accreditation activities for the Patent Cooperation
Treaty Search Recordation System (PCTSRS) as part of our FY 2009
responsibilities for conducting independent evaluations under the Federal
Information Security Management Act (FISMA). For a complete outline of our
objectives, scope, and methodology, see appendix A.
PCTSRS is owned and operated by Cardinal IP, a U.S. Patent and Trademark
Office (USPTO) contractor that provides services related to international patent
applications. Cardinal employees use the system to perform searches and submit
written opinions regarding the patentability of inventions.
An application filed with USPTO under the Patent Cooperation Treaty is
transmitted to a PCTSRS batch server via a secure connection. Cardinal staffers
then transfer the application to PCTSRS’ web docket system and assign an
appropriate search professional to work on it. The search professional remotely
accesses the “case” from her own computer via a secure remote desktop application,
which includes controls to prevent the transfer of patent data to her local disk drive.
Cardinal then transfers the search professional's written opinion in its web docket
system back to USPTO via a batch server and secure connection.
Based on the intellectual property protection information it contains, PCTSRS is
categorized

PCTSRS is located at Cardinal IP's
                                 . The system, which went operational in October
2006, underwent its first security certification in 2008 and was granted an interim
authorization to operate in September 2008. Cardinal and USPTO's Information
Technology Security Management Group then devised a recertification plan to
assess only the controls from the previous assessment that were deemed high risk,
that had been changed since the previous assessment, or that were identified by
USPTO's independent verification and validation (IV&V) contractor (after the
interim authorization to operate was granted) as needing better assessment.
Controls were assessed by a certification team from Veris Group, a contractor for
Cardinal IP. The initial scope of 68 controls was later expanded to include all
physical and environmental controls pertaining to the             datacenter, which
had not been assessed in 2008. This time, the IV&V contractor reviewed the
recertification and accreditation package before the accreditation decision was
made. The contractor’s review helped improve the security plan and documentation
of the control assessment.
In late May 2009, the acting commissioner for patents and the chief information
officer—co-authorizing officials—granted an authorization to operate. In the
accreditation decision letter, the officials noted that vulnerabilities in Configuration



                                           1                                       
U.S. Department of Commerce                                                           Final Report OAE-19731
Office of Inspector General                                                                     November 2009


Settings (CM-6) and Flaw Remediation (SI-2)1 were “a concern” and directed
Cardinal "to immediately begin the remediation efforts for these vulnerabilities and
complete implementation as soon as possible, but no later than 90 days after the
date of this [authorization to operate]. Additionally, the contractor shall provide bi-
weekly status reports toward remediation of these vulnerabilities."2




                                                            
1
  “CM-6,” “SI-2” and other similarly formatted notations are security control identifiers from NIST SP 800-53,
Recommended Security Controls for Federal Information Systems. We include the name of the control at the first
mention in the report and use the identifier thereafter.
2
  Owens, John B. II, and Margaret A. Focarino. May 7, 2009. Security Certification Statement for the Patent
Cooperation Treaty Search Recordation System. Memorandum to Blaine Copenheaver, USPTO, and Rod Turk,
USPTO.


                                                               2                                         
U.S. Department of Commerce                                                               Final Report OAE-19731
Office of Inspector General                                                                         November 2009


                                                   Findings and Recommendations
    I.        Certification and Accreditation Process Included Minor Deficiencies

Although we found deficiencies with PCTSRS’ certification and accreditation
activities, USPTO’s process for certifying contractor systems produced sufficient
information to enable the co-authorizing officials to make a credible, risk-based
accreditation decision.

       A. Boundary Definition and System Component Inventory
The system accreditation boundary definition was not updated for two key classes of
components:                                                                 The
system boundary document described four           components
         ) in PCTSRS. Also, a spreadsheet presented as the system's component
inventory and referred to in the initiation-phase security plan did not mention any
      components. However, we learned there are actually 12           components
considered to transmit PCTSRS data: in addition to the 4 mentioned in the system
boundary definition, there are 8 other          . This deficiency did not detract from
the control assessment, as all 12 were assessed for compliance with secure
configuration settings.
                   and a                       were included in the information
system component inventory presented in the certification and accreditation
package and in a second list used by the certification team to validate the
Information System Component Inventory (CM-8) security control. These
components were scanned for vulnerabilities, but no additional assessments were
conducted by the certification team. Cardinal staff told us these components do not
process, store, or transmit PCTSRS data; therefore, the components are considered
to be out of scope. We did not perform an on-site assessment to validate that this
was the case. Cardinal staff told us they intend to revise CM-8 documentation to
reflect the fact that these        are not within the scope of the system’s boundary.
       B. Security Plan Deficiencies
The post-certification security plan3 indicates that the "details of the [information
system component] inventory are documented in this [system security plan],” and
that Cardinal "updates the PCTSRS inventory as an integral part of system
management."4 However, the CM-8 issues discussed above suggest otherwise, and
Cardinal staff conceded that the evidence they provided to the certification team for
CM-8 was outdated. The security plan and related procedures for CM-8 did not
provide any details as to how the component inventory was maintained or what
information it contained, nor a reference to the actual inventory itself. The
                                                            
3
  We reviewed version 2.6 of the system security plan, which was the basis for the accreditation decision. Late in our
evaluation, we were given version 3.0 (dated July 16, 2009) of the security plan and found the same deficiencies.
4
  U.S. Patent and Trademark Office, April 16, 2009. Cardinal Intellectual Property (CIP) Patent Cooperation
Treaty Search Recordation System (PCTSRS) System Security Plan (SSP), Version 2.6, 69-70.


                                                                3                                            
U.S. Department of Commerce                                      Final Report OAE-19731
Office of Inspector General                                                November 2009


descriptions amounted to mere assertions that the control requirements were being
met.
We noted a discrepancy between the parameters for Unsuccessful Login Attempts
(AC-7) described in the security plan and the                       for PCTSRS
that was included in the control assessment artifacts. The security plan stated that


                                                                     . AC-7 was not
assessed for the 2009 recertification, so this discrepancy was not addressed by the
certification team. However, Cardinal staff confirmed our conclusion that the
change was the result of implementing secure configuration settings in
environments.
Account Management (AC-2), enhancement 4, requires the organization to employ
automated mechanisms to audit account creation, modification, disabling, and
termination. However, the PCTSRS security plan descriptions of mechanisms for
the various component types do not address auditing capabilities.


    II.   Minor Deficiencies Identified in System Security Controls

We identified only minor control deficiencies in our review of system artifacts and
interviews of contractor staff.

      A. Configuration Settings (CM-6)
Secure configuration settings were not defined prior to the control assessment, but
the eventual benchmarks were identified and settings examined on
                                                                . The certification
team concluded CM-6 was "other than satisfied," discussed the vulnerability in the
security assessment report, and added CM-6 to the system's plan of action and
milestones (POA&M). Cardinal has now defined secure configuration settings for

                       .
Secure configuration settings defined for     components are included in PCTSRS'
                Standards. Unlike the other configuration settings defined for IT
products mentioned above, this document does not compare PCTSRS' defined
settings to industry benchmark settings. While there is overlap with the industry
benchmark, not all recommended settings were addressed—a particular concern
involves

Cardinal has recently submitted evidence to USPTO's IT security management
group in support of closing the POA&M for CM-6. USPTO's IV&V contractor is
currently evaluating the evidence for completeness. However, we found no evidence
that       devices were compliant with PCTSRS’ defined settings. The certification


                                          4                                      
U.S. Department of Commerce                                                         Final Report OAE-19731
Office of Inspector General                                                                   November 2009


team noted in its assessment of CM-6 that "benchmark tests conducted against
                                                           [emphasis added]
confirmed that system configuration settings are not compliant with the [industry]
benchmark standard.”
       B. Baseline Configuration (CM-2)
The requirements for this control were at least partially confused with the
requirements for Configuration Settings (CM-6) in the initiation, security
certification, and accreditation phases. As a result, the control requirements are not
being properly remediated in the (current) continuous monitoring phase.
The security plan, the control assessment, and the security assessment report all
indicated that, with respect to CM-2 requirements, Cardinal IP administrators were
in the process of implementing secure configuration settings (i.e., CM-6) based on
industry benchmarks. The Cardinal Intellectual Property Security Control
Procedures for CM-2 further discussed CM-6 requirements rather than what was
needed for the system’s baseline configuration. Although the control was deemed
“other than satisfied,” the certification team’s evidence for this status was a
USPTO memo addressing secure configuration settings, which again falls under
CM-6 requirements.
Currently, Cardinal has submitted a request to close the CM-2-related POA&M
item along with the CM-6 POA&M item. However, only compliance scans validating
secure configuration settings were submitted as proof of the control’s remediation.
As explained in NIST SP 800-53, Recommended Security Controls for Federal
Information Systems,

              [CM-2] establishes a baseline configuration for the information system.
              The baseline configuration provides information about a particular
              component’s makeup (e.g., the standard software load for a
              workstation or notebook computer including updated patch
              information) and the component’s logical placement within the
              information system architecture.5

We reviewed two reports prepared by Cardinal that detail the applications installed
in workstations. The information in the reports would partially satisfy CM-2
requirements for those components.




                                                            
5
 NIST Special Publication 800-53, Revision 2, Recommended Security Controls for Federal Information Systems,
F-24.


                                                               5                                      
U.S. Department of Commerce                                       Final Report OAE-19731
Office of Inspector General                                                 November 2009


III.   Continuous Monitoring Is Keeping Authorizing Officials Sufficiently
       Informed, with a Minor Exception

Continuous monitoring—with respect to configuration management and the USPTO
POA&M process—does appear to be keeping the authorizing officials sufficiently
informed about the operational status and effectiveness of security controls,
although minor deficiencies should be remediated.
Cardinal has made considerable progress made towards implementing CM-6 and
SI-2, and has provided bi-weekly status updates to USPTO in accordance with the
authorizing officials’ directive. However, we did note a deficiency in the remediation
of SI-2 vulnerabilities.
    A. Vulnerability Remediation and POA&M Validation
USPTO closed the SI-2 weakness in the system’s POA&M without properly
validating that vulnerabilities had been fully remediated. We reviewed the notes
and artifacts supporting the closing of a POA&M item that stemmed from the
certification team's assessment of SI-2. Both the explanation for closing the
POA&M item and the artifacts included as evidence of the vulnerabilities'
remediation referred to workstations only, not to servers.
However, the vulnerabilities identified by the certification team pertained to both
workstations and servers (from the certification team’s assessment): “Although the
           server and          workstation environments are patched, outdated and
insecure versions of third party software were detected throughout the environment
[emphasis added]. Most notably, vulnerabilities were associated with outdated
installations of                                   .” The evidence for SI-2
assessment pointed to findings from vulnerability scans. A sorting of scan results
indicates 297 high- or medium-risk findings (184 high) related to SI-2 for
servers.
After we discussed this deficiency with USPTO and Cardinal staff, they produced
archived emails with attached evidence that Cardinal had fixed the server
vulnerabilities. However, USPTO did not follow its own procedures and include the
evidence in the POA&M record; based on the notes supporting the closing of the
SI-2 POA&M item, USPTO’s validation pertained to workstations only.




                                          6                                       
U.S. Department of Commerce                                        Final Report OAE-19731
Office of Inspector General                                                  November 2009


Recommendations

USPTO should
    1. review the information system component inventory and update it in
       accordance with the requirements of USPTO policy and NIST SP 800-53;
    2. correct the security plan deficiencies (including related security control
       procedures) with accurate and complete information;
    3. revise the PCTSRS mandatory configuration settings for           components to
       address the deficiencies described above;
    4. revise the security plan description for CM-2 and remediate the POA&M item
       in accordance with the actual control requirements; and
    5. reopen the SI-2 POA&M item until evidence of remediation of outdated
       software on server components is validated in accordance with USPTO
       procedure.


 




                                           7                                         
U.S. Department of Commerce                                   Final Report OAE-19731
Office of Inspector General                                             November 2009


             Summary of USPTO Response and OIG Comments

In response to our draft report, USPTO agreed with our findings and
recommendations. USPTO also described actions it intends to take to remediate the
deficiencies—these were consistent with our recommendations. USPTO’s response
is included in this report as appendix B.




                                        8                                     
U.S. Department of Commerce                                        Final Report OAE-19731
Office of Inspector General                                                  November 2009


Appendix A: Objectives, Scope, and Methodology

Our objectives were to determine whether (1) implemented controls adequately
protect the system and its information, (2) continuous monitoring is keeping the
authorizing official sufficiently informed about the operational status and
effectiveness of security controls, and (3) the certification and accreditation process
produced sufficient information about remaining system vulnerabilities to enable
the authorizing official to make a credible, risk-based accreditation decision.



Security certification and accreditation packages contain three elements, which
form the basis of an authorizing official’s decision to accredit a system:

    •   The system security plan describes the system, the requirements for
        security controls, and the details of how the requirements are being met. The
        security plan provides a basis for assessing security controls and also
        includes other documents such as the system risk assessment and
        contingency plan, per Department policy.

    •   The security assessment report presents the results of the security
        assessment and recommendations for correcting control deficiencies or
        mitigating identified vulnerabilities. This report is prepared by the
        certification agent.

    •   The plan of action & milestones (POA&M) is based on the results of the
        security assessment. It documents actions taken or planned to address
        remaining vulnerabilities in the system.

The Department’s IT Security Program Policy and Minimum Implementation
Standards requires that certification and accreditation packages contain a
certification documentation package of supporting evidence of the adequacy of the
security assessment. Two important components of this documentation are

    •   the certification test plan, which documents the scope and procedures for
        testing (assessing) the system’s ability to meet control requirements; and

    •   the certification test results, which is the raw data collected during the
        assessment.

To evaluate the certification and accreditation, we reviewed all components of the
certification and accreditation package and interviewed USPTO and Cardinal staff
to clarify any apparent omissions or discrepancies in the documentation and gain
further insight on the extent of the security assessment. We evaluated the security



                                           9                                       
U.S. Department of Commerce                                      Final Report OAE-19731
Office of Inspector General                                                November 2009


plan and assessment results for applicable security controls and will give
substantial weight to the evidence that supports the rigor of the security
assessment when reporting our findings to OMB.
To evaluate system security controls, we examined system artifacts included in the
package as well as additional information and evidence about controls we requested
during the course of our review. We also interviewed Cardinal and USPTO staff to
gain further insight on the status of controls. Our FISMA reporting deadline caused
us to cancel previously scheduled on-site assessments of PCTSRS controls, which we
would typically do and which we would weigh significantly when determining the
effectiveness of system security controls.
To evaluate continuous monitoring, we conducted interviews and examined
correspondence and other information exchanged between Cardinal and USPTO
since the accreditation and the system’s POA&M records.
We used the following review criteria:
    •   Federal Information Security Management Act of 2002 (FISMA)

    •   U.S. Department of Commerce IT Security Program Policy and Minimum
        Implementation Standards, June 30, 2005

    •   NIST Federal Information Processing Standards (FIPS)

           o Publication 199, Standards for Security Categorization of Federal
             Information and Information Systems

           o Publication 200, Minimum Security Requirements for Federal
             Information and Information Systems

    •   NIST Special Publications:

           o 800-18, Guide for Developing Security Plans for Information
             Technology Systems

           o 800-37, Guide for the Security Certification and Accreditation of
             Federal Information Systems

           o 800-53, Recommended Security Controls for Federal Information
             Systems

           o 800-53A, Guide for Assessing the Security Controls in Federal
             Information Systems

           o 800-70, Security Configuration Checklists Program for IT Products




                                          10                                      
U.S. Department of Commerce                                    Final Report OAE-19731
Office of Inspector General                                              November 2009


           o 800-115, Technical Guide to Information Security Testing and
             Assessment

We conducted our evaluation in accordance with the Inspector General Act of 1978,
as amended, and the Quality Standards for Inspections (revised January 2005),
issued by the President’s Council on Integrity and Efficiency.
 




                                        11                                     
U.S. Department of Commerce        Final Report OAE-19731
Office of Inspector General                  November 2009


Appendix B: USPTO Response




                              12                   
U.S. Department of Commerce        Final Report OAE-19731
Office of Inspector General                  November 2009




 



                              13                   
U.S. Department of Commerce        Final Report OAE-19731
Office of Inspector General                  November 2009




                              14                   
